Region 8 Nonpoint Source Grant Oversight Needs
Improvement
                                 Office of Inspector General
                                 Report of Audit

                                                      WATER

                             Region 8 Nonpoint Source Grant Oversight
                                       Needs Improvement
                                     E1HWF7-08-0009-7100304
                                                September 30, 1997



Inspector General Division Conducting the Central Audit Division Denver,
Audit                                     Colorado
Region Covered                           Region 8
Program Office Involved                  Office of Water




                                                    September 30, 1997




MEMORANDUM

SUBJECT: Region 8 Nonpoint Source Grant Oversight Needs Improvement

        Report Number E1HWF7-08-0009-7100304

FROM: Bennie S. Salem

        Divisional Inspector General

TO: William P. Yellowtail

        Regional Administrator
        Region 8

Attached is our report entitled Region 8 Nonpoint Source Grant Oversight Needs Improvement. The report includes
recommendations to update state nonpoint source (NPS) management plans, develop and finalize NPS policy papers,
and develop a strategy to build states’ capacity to operate their NPS programs without reliance on section 319 funding.
We found that Wyoming’s lack of sufficient staff and its poor working relationship with Region 8 adversely impacted its
NPS program. In addition, we found areas needing improvement in Utah’s and Wyoming’s financial management. We
discussed our findings with your staff and issued a draft report. We summarized your comments and those from the three
states we reviewed in the final report and included your complete response as Appendix I.

In accordance with Environmental Protection Agency (EPA) Order 2750, you as the action official, are required to provide
this office a written response to the audit report within 90 days of the final audit report date. For corrective actions planned
but not completed by the response date, reference to specific milestone dates will assist in deciding whether to close this
report.

We appreciate the cooperation you and your staff provided throughout the audit. We especially appreciate the program
staff’s assistance and timely response during the audit. The program staff demonstrated a genuine interest in improving
the NPS program.

This audit report contains findings that the Office of Inspector General (OIG) has identified and corrective actions OIG
recommends. This audit report represents the opinion of OIG, and the findings contained in this audit report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report will be made by EPA
managers in accordance with established EPA audit resolution procedures.




We have no objections to the release of this report to the public.

If you or your staff have any questions, please call me at (913) 551-7831 or Jeff Hart, Audit Manager in our Denver office,
at 312-6169. Please refer to report number E1HWF7-08-0009-7100304 on any correspondence.

Attachment




                                              EXECUTIVE SUMMARY


PURPOSE

Environmental Protection Agency (EPA) Region 8 nonpoint source (NPS) program staff requested that the Office of
Inspector General (OIG) audit the Colorado, Utah, and Wyoming NPS grant expenditures. Because EPA planned to
reduce its oversight of state NPS programs, regional program staff requested that OIG determine whether states ensured
NPS costs were eligible for reimbursement..




OBJECTIVES

Our audit objectives were to answer the following questions:

Was Region 8's oversight sufficient to ensure state programs were accomplishing NPS pollution abatement and
prevention objectives as stated in the Clean Water Act (CWA), EPA guidance, and regional guidance and policies?
Did states ensure projects were in accordance with NPS objectives and consistent with state/EPA agreements and had
individual projects accomplished their specific objectives?

Were costs claimed allowable, reasonable, and allocable to the grant and in compliance with the grant terms and
conditions and applicable federal statutes and regulations?

Did state project managers obtain sufficient financial and programmatic information to ensure grant expenditures were
appropriate?




RESULTS IN BRIEF

Region 8 needed to require states to update their NPS management plans. Also, Region 8 needed to enforce program
requirements. The Region needed to provide more program and technical assistance by developing policy papers that
defined administrative costs and demonstration projects. Colorado, Utah, and Wyoming varied significantly in the level of
resources applied to and commitment placed on their NPS programs. Wyoming did not commit sufficient resources to run
an effective program, and the three states we reviewed had not developed adequate capacity to implement an NPS
program without section 319 funding. We did not identify any questioned costs in our sample of NPS expenditures in
Colorado and Wyoming but identified $265,182 of ineligible costs in Utah’s matching fund pool.




Region 8 Should Improve Oversight And Technical Assistance For State NPS Programs

Region 8 should improve its oversight and enforcement of NPS program requirements, while moving toward providing
more programmatic and technical assistance. The Region did not require and the states did not provide updated
management plans due to anticipated CWA changes, states’ low priority on updating management plans, and the lengthy
assessment process for determining priorities. Region 8 sent unclear messages to states by not enforcing program
requirements. The Region provided regional guidance and policy papers for the NPS program, but needed to define
additional program terms so that states consistently implemented important portions of their NPS program. As a result,
Region 8 and the states had limited assurance that states addressed the most significant nonpoint sources of pollution.




State NPS Program Management Was Mixed

States’ NPS program management and resource commitment varied significantly. The state projects we reviewed were
generally in accordance with NPS objectives and accomplished their specific project objectives. However, the three states
did not commit sufficient state resources to fully implement their programs without continued federal funding. EPA’s
practice of allowing states to carry forward NPS funds from prior years’ grants discouraged states from developing their
own capacity and identifying other sources of funding to sustain their NPS programs. In addition, Wyoming’s program
suffered from its differences with Region 8 over oversight and reporting requirements. Utah’s NPS program could suffer in
future years if Utah’s priorities shift and Utah does not reallocate its resources based on those priorities. Without
continued federal funding the three states could not continue to implement their NPS program and ensure EPA and
Congress that their programs addressed the most significant state NPS pollution problems.




Utah and Wyoming Needed To Improve Some Financial Management Practices

Utah and Wyoming needed to improve some NPS program financial management practices. We did not question any
costs in our sample of NPS expenditures in Colorado and Wyoming. We identified $265,182 of ineligible costs in Utah’s
NPS project matching fund pools and identified areas needing improvement in Utah’s and Wyoming’s financial
management practices. Utah’s conservation association inadvertently included agricultural loan lines of credit in its NPS
project matching fund pools. In addition, the association did not have supporting documentation for some costs and
included other ineligible items in its project matching fund pools. Wyoming’s burdensome contract amendment process
resulted in one subgrantee performing work beyond the contract project period. Utah travel procedures did not require
travelers to provide the purpose of their trip on in-state travel documents, and NPS project files did not include summary
sheets for easy tracking of expenditures and related matching funds. Utah began reviewing its matching fund pools to
remove ineligible costs and agreed to make necessary procedural changes in its travel procedures and project file
management.




RECOMMENDATIONS

The Regional Administrator should establish milestones for each state to update its management plan and work with
Wyoming to ensure that its management plan identifies NPS pollution priorities. The Region, in coordination with the
Office of Water, needs to finalize its policy paper on administrative costs and develop a policy paper that defines
demonstration project. The Region 8 NPS staff needs to help states develop a plan to build states’ capacity to operate an
NPS program without reliance on section 319 funding. The Regional Administrator should require Wyoming to evaluate
how it will meet NPS program commitments and work with Wyoming to realistically achieve program goals. The Regional
Administrator needs to verify that Utah’s matching funds are eligible prior to making final payment on any Utah NPS grant.
In addition, the Regional Administrator should ensure that Wyoming and Utah make certain improvements to some of their
financial management practices.




AUDITEE COMMENTS AND OIG EVALUATION

Region 8 and the three states generally agreed with the findings and recommendations. The Region and the states
provided comments to clarify portions of the report and we have incorporated those comments and modified the report as
appropriate.




                                       TABLE OF CONTENTS



EXECUTIVE SUMMARY

CHAPTERS

1 INTRODUCTION

PURPOSE
BACKGROUND
SCOPE AND METHODOLOGY
PRIOR AUDIT REPORTS

2 REGION 8 SHOULD IMPROVE OVERSIGHT AND TECHNICAL ASSISTANCE FOR STATE NPS PROGRAMS

REGION 8 HAD NOT REQUIRED STATES TO UPDATE MANAGEMENT PLANS
REGION 8 NEEDED TO ENFORCE PROGRAM REQUIREMENTS
REGION 8 NEEDED TO ISSUE ADDITIONAL GUIDANCE TO BETTER DEFINE PROGRAM TERMS
CONCLUSION
RECOMMENDATIONS
AUDITEE COMMENTS AND OIG EVALUATION

3 STATE NONPOINT SOURCE PROGRAM MANAGEMENT WAS MIXED

STATES NEED TO PROVIDE STRONGER RESOURCE COMMITMENT
WYOMING AND REGION 8'S RELATIONSHIP ADVERSELY IMPACTED WYOMING’S NPS PROGRAM
UTAH’S NPS MANAGEMENT STRUCTURE SHOULD CORRELATE TO NPS PRIORITIES
STATES VARIED NPS TASK FORCE COMPOSITION
CONCLUSION
RECOMMENDATIONS
AUDITEE COMMENTS AND OIG EVALUATION


4 UTAH AND WYOMING NEEDED TO IMPROVE SOME FINANCIAL MANAGEMENT PRACTICES

UTAH’S MATCHING FUND POOLS INCLUDED INELIGIBLE COSTS
WYOMING NEEDED TO STREAMLINE ITS CONTRACT AMENDMENT PROCESS
UTAH INITIATED ADMINISTRATIVE IMPROVEMENTS
CONCLUSION
RECOMMENDATIONS
AUDITEE COMMENTS AND OIG EVALUATION

EXHIBIT

EXHIBIT I: SCOPE AND METHODOLOGY

APPENDICES

APPENDIX I: EPA COMMENTS
APPENDIX II: COLORADO COMMENTS
APPENDIX III: UTAH COMMENTS
APPENDIX IV: WYOMING COMMENTS
APPENDIX V: ABBREVIATIONS
APPENDIX VI: DISTRIBUTION




                                              CHAPTER 1


                                           INTRODUCTION




PURPOSE

The Environmental Protection Agency (EPA) Region 8 nonpoint source (NPS) program staff requested that the Office of
Inspector General (OIG) audit NPS programs in Colorado, Utah, and Wyoming and their subgrantees’ program
expenditures. Because EPA planned to reduce its oversight of state NPS programs, regional program staff requested that
OIG determine whether states ensured NPS costs were eligible for reimbursement.
Our audit objectives were to answer the following questions:

Was Region 8's oversight sufficient to ensure state programs were accomplishing NPS pollution abatement and
prevention objectives as stated in the Clean Water Act (CWA), EPA guidance, and regional guidance and policies?

Did states ensure projects were in accordance with NPS objectives and consistent with state/EPA agreements and had
individual projects accomplished their specific objectives?

Were costs claimed allowable, reasonable, and allocable to the grant and in compliance with the grant terms and
conditions and applicable federal statutes and regulations?

Did state project managers obtain sufficient financial and programmatic information to ensure grant expenditures were
appropriate?




BACKGROUND

Congress enacted section 319 of the CWA in 1987, establishing a national program to control nonpoint sources of water
pollution. Section 319 (h) provides grants to assist states in implementing their NPS management programs. Congress
appropriated the first section 319 grant funds in fiscal 1990.

Under section 319, states address NPS pollution by assessing NPS pollution problems and related nonpoint sources and
adopting and implementing management plans to reduce the pollution. A state NPS assessment report summarizes the
pollution assessment and identifies the nonpoint sources responsible for the water quality problems. States base their
NPS management programs on the NPS assessment reports. The management program outlines a strategy for
implementing NPS controls to attain or maintain applicable water quality standards.

NPS pollution does not normally result from a discharge at a specific single location, and nonpoint sources are not
regulated through the CWA permit program. NPS pollution is caused by rainfall or snow melt moving over or through the
ground and carrying natural or human-made pollutants into lakes, rivers, other waterbodies, and groundwater. These
pollutants often come from activities related to agriculture, silviculture, dams, water development projects, and urban and
construction project runoff.

EPA provides NPS funding to states to finance two types of activities: (1) staffing and support funds to manage and
enhance the NPS program, and (2) project funds to directly address NPS problems. States use NPS funds for
enforcement, monitoring, technical assistance, education, and training. Most NPS projects are demonstration projects
designed to show the effectiveness of a particular best management practice. Other NPS projects provide training or
information and educational services. States contract with other state, local, and federal agencies, and educational and
private institutions to carry out NPS projects and related activities.

The NPS program is for the most part a voluntary and non-regulatory program. EPA’s primary approach to reducing NPS
pollution is by identifying and applying best management practices. Best management practices are methods, measures,
or practices that reduce or eliminate nonpoint sources of pollution. These practices can be applied before or after NPS
pollution becomes a problem. States may award funds to individuals only to implement demonstration projects. The intent
of the demonstration project is to accelerate the transfer and adoption of best management practices. Neither EPA nor
states can require individuals to implement these practices. EPA uses the results of demonstration projects to persuade
other nonparticipating landowners to implement these practices without EPA funds.

CWA requires that the federal share of states’ NPS program costs not exceed 60 percent. States must provide the
remaining 40 percent of the NPS program costs from non-federal sources. The NPS program costs include both staffing
and support activities as well as demonstration and other implementation projects. The 40 percent requirement applies to
both staffing and support activities and projects. In most cases, states require individual landowners to contribute all or
part of the matching funds for an individual project.

Region 8 works with states to implement the NPS program through its Ecosystems Protection and Remediation Office. Its
community support unit works directly with state environmental departments to provide NPS grant management advice
and NPS technical assistance. Colorado’s and Wyoming’s environmental agencies manage the majority of their state NPS
programs. Utah’s environmental department provides oversight for its program and contracts with the Utah agricultural
department to manage about 70 percent of Utah’s state NPS program.

Since 1989, EPA has issued several national guidance documents addressing the award and management of section 319
NPS grants. EPA’s guidance emphasized throughout that the funds would be directed toward activities that resulted in
demonstrated progress in achieving Congress’ goal of controlling and abating NPS pollution. EPA’s guidance stated that
the grant funds were not considered entitlements and EPA would award grants based on priorities, criteria, and
procedures that assured that the funds would be effectively used to achieve NPS program objectives.

In its guidance, EPA identified four broad objectives in awarding section 319 NPS grants. NPS grants are intended to
support state activities for abating or preventing NPS pollution that have the greatest likelihood of producing early,
demonstrable water quality results and reducing ecological and health risks in areas of greatest concern. Grants should
be awarded and managed in a manner that encourages and rewards effective performance by the states and encourages
the institutionalization of state and local NPS programs. In addition, state NPS programs should encourage strong
relationships among federal, state, and local NPS and NPS-related programs and activities.

In its 1997 guidance, EPA stated that its role in the NPS program would shift away from grants oversight toward technical
assistance and support. EPA’s approach would be to work closely with states and give them programmatic and technical
support as they moved toward a more independent level of program implementation. EPA would reduce its state oversight
when a state adopted nine key program elements and demonstrated a proven track record of effective implementation.




SCOPE AND METHODOLOGY

We conducted performance and financial audits of the Colorado, Utah, and Wyoming NPS programs. We performed our
fieldwork from September 1996 to June 1997. We performed our fieldwork at Region 8 and Colorado Department of
Public Health and Environment offices in Denver, Colorado; Utah Departments of Environmental Quality and Agriculture in
Salt Lake City, Utah; and Wyoming Department of Environmental Quality in Cheyenne, Wyoming.

We conducted the audit in accordance with Government Auditing Standards (1994 Revision) issued by the Comptroller
General of the United States. Accordingly, the review included tests of the accounting records and other auditing
procedures as we considered necessary. Other than the issues discussed in this report, no other significant issues came
to our attention that warranted expanding the scope of our audit.

Our audit did not include a complete review of states’ internal control systems. We relied on states’ 1994 and 1995 single
audit reports to the extent possible in the performance of our audit. We analyzed a sample of incurred costs and related
internal controls to assure compliance with federal statutory and regulatory criteria and with states’ policies and
procedures. Because of the inherent limitations in any system of internal accounting control, errors or irregularities may
occur and not be detected. Except for the issues discussed in this report, nothing came to our attention that would cause
us to believe states’ procedures were not adequate for our purposes.




PRIOR AUDIT REPORTS

Neither OIG nor the U.S. General Accounting Office (GAO) issued any reports addressing Region 8's NPS program.
However, GAO issued several water quality-related audits that addressed NPS pollution.

In a June 30, 1995 report entitled Agriculture and the Environment: Information on and Characteristics of Selected
Watershed Projects, GAO examined the lessons learned from nine innovative, successful watershed projects that
addressed NPS pollution. Several of these projects included EPA grant funding. GAO found that the keys to reducing
agricultural pollution from nonpoint sources included building citizen cooperation through education and getting
stakeholders to participate in developing project goals. In addition, GAO found that some project participants believed that
because of their communities’ resistance to regulatory enforcement, voluntary efforts were the most feasible way of
reducing NPS pollution.

In an October 1990 report entitled WATER POLLUTION: Greater EPA Leadership Needed to Reduce Nonpoint Source
Pollution, GAO found that insufficient monitoring data and political sensitivities in controlling local land uses that indirectly
caused water pollution were barriers to state and local efforts to control NPS pollution. The report identified that EPA had
developed an ambitious agenda to deal with the barriers, but resource constraints significantly inhibited EPA’s progress in
implementing its agenda. The report recommended that EPA establish funding priorities among its water quality programs
that would allow EPA to pursue key objectives of an effective NPS agenda.




                                                 CHAPTER 2

  REGION 8 SHOULD IMPROVE OVERSIGHT AND TECHNICAL ASSISTANCE
                    FOR STATE NPS PROGRAMS




Region 8 should improve its oversight and enforcement of NPS program requirements, while moving
toward providing more programmatic and technical assistance. Due to anticipated CWA changes,
states’ low priority on updating management plans, and the lengthy assessment process for
determining priorities, the Region did not require and the states did not provide updated management
plans. Region 8 sent unclear messages to states by not enforcing program requirements. The Region
provided regional guidance and policy papers for the NPS program, but needed to define additional
program terms so that states consistently implemented important portions of their NPS program. As a
result, Region 8 and the states had limited assurance that states addressed the most significant
nonpoint sources of pollution. Because EPA intended to increase state management responsibility for
the NPS program, Region 8 needed to ensure states were implementing dynamic and effective NPS
programs designed to achieve and maintain beneficial uses of water before significantly reducing
oversight.

Beginning in 1997, EPA envisioned its role as shifting away from grants oversight and administration
and focusing more on technical assistance and cooperation. EPA’s 1997 NPS guidance listed nine
key elements that states needed in their NPS program to be afforded substantially reduced oversight
and maximum flexibility. One of the nine key elements required states to review, evaluate, and revise
their NPS assessment reports and management plans at least every 5 years. Beginning in late fiscal
1996 and continuing into fiscal 1997, EPA encouraged each state to review and revise its NPS
assessment reports and management plans.

Management plans are the link between problems identified in a state’s assessment report and
projects funded to address those problems. These plans should be working documents used to
identify the highest priority areas and to fund those projects that have the greatest potential to reduce
NPS pollution. According to section 319, initial management plans described how a state proposed to
implement its NPS program in the first four fiscal years. Region 8 guidance stated that each proposed
project must be reviewed to determine how well the project conformed to priorities identified in the
respective state’s management plans.



REGION 8 HAD NOT REQUIRED STATES TO UPDATE MANAGEMENT PLANS
States in Region 8 had not updated their NPS management plans since their initial publication in
1989. Due to anticipated CWA changes in 1994, Region 8 had not required its states to provide the
first required update to their plans. In fiscal 1996, EPA allowed states to use section 319 NPS funds
to update their management plans. However, the three states we reviewed had not updated their
plans. As a result, states’ plans were outdated, and states could not reasonably ensure that the plans
they established in 1989 were still valid in 1997.

Although Colorado’s and Utah’s initial NPS management plan adequately addressed all the required
CWA elements, including identifying priority nonpoint sources, neither had developed an updated
plan since Region 8's initial approval. Region 8 approved Colorado’s and Utah’s overall management
plans in 1990 and 1989, respectively. In 1992, Colorado issued a supplement to its management plan
and, in 1994, issued two supplements to address specific NPS activities. Utah issued an addendum
to its management plan in March 1995. Utah recognized the need to update its management plan but
believed that its 1989 management plan was still valid and that other mechanisms had kept its NPS
program focused on the highest priorities. Utah stated that it monitored and assessed statewide water
quality, prioritized problem areas, and worked closely with all stakeholders. The projects we reviewed
for Colorado and Utah all related to priorities established in their management plans. However, the
states still needed to update their management plans so that they had a single, comprehensive
document that incorporated states’ most current assessment of water quality, prioritized problem
areas, and defined states’ plans for addressing NPS pollution.



Neither Colorado nor Utah planned to issue updated management plans before fiscal 1998. Colorado
was reevaluating its priorities and conducting water quality assessments to determine if priorities had
changed since its 1990 management plan. As a result of their monitoring and assessment activities,
Colorado staff estimated that they would not have an updated management plan before 1998. Utah
planned to revise its plan by June 1, 1998. Until both states update their management plans, they
have limited assurance that priority projects are still being funded and projects are strengthening and
balancing overall management plan goals and milestones.

Wyoming’s initial 1989 management plan did not meet all CWA requirements and had not been
updated. EPA approved parts of Wyoming’s management plan in 1989 but identified significant
problems in other parts. For example, Wyoming’s management plan limited NPS planning and
implementation activities to private sector representatives, while CWA and Region 8 strongly
encouraged participation by all interested parties. In addition, Wyoming’s management plan did not
adequately identify the State’s NPS priorities. The three Wyoming projects we reviewed were not
easily tied to Wyoming’s management plan because the plan did not adequately identify high priority
NPS problems. State representatives agreed that the management plan did not adequately identify
priorities and that funded projects were not easily tied to the management plan. They explained that
initially they had few projects to fund and as a result funded all the projects that were submitted
regardless of priority. Wyoming staff added that currently they received many more projects than they
could possibly fund and that the projects were ranked as to priority. However, Wyoming had no
strategy to ensure that its funded projects strengthened or expanded its NPS program, since its
management plan did not adequately describe the State’s strategy.

Wyoming stated that Region 8 approved a list of priorities in January 1990 and Wyoming used its
305(b) report to identify priority NPS problems. However, Wyoming’s January 1990 list was a list of
prioritized project proposals, not a list of prioritized NPS pollution. Further, these project proposals
were not ranked according to any list of prioritized sources of NPS pollution. Wyoming staff agreed
that they needed to better assess nonpoint sources and update their management plan to better
articulate their funding priorities.
Although Wyoming representatives recognized the deficiencies in the 1989 management plan, they
had not placed a priority on developing an updated plan. In its 1995 and 1996 staffing and support
workplans, Wyoming stated that it was ". . .anxious to rewrite its Nonpoint Source Management Plan.
. . " and that "[n]umerous deficiencies in the existing plan are apparent." However, Wyoming stated in
its 1995 workplan that rewriting the plan at this time would be fiscally irresponsible because it did not
know what changes a revised CWA might impose. In its 1996 workplan, it stated that ". . .now is the
prudent time to begin to address these deficiencies . . . " in the Wyoming management plan. In its
draft 1998-2000 state/EPA agreement, Wyoming indicated that it would update its management plan
by October 1999. Wyoming needs to immediately begin updating its management plan to correct the
deficiencies in its initial plan and to incorporate the current CWA requirements. Until Wyoming’s
management plan meets current CWA requirements, Wyoming and Region 8 have no assurance that
Wyoming’s NPS projects address the State’s most significant nonpoint sources of pollution.



REGION 8 NEEDED TO ENFORCE PROGRAM REQUIREMENTS

Region 8 sent unclear messages to states by not enforcing program requirements. Section 319 and
NPS grant conditions required Region 8 to withhold NPS funds until states complied with grant
conditions. However, the Region permitted Wyoming to use its remaining 1995 and 1996 NPS grant
funds even though Wyoming had not complied with 1995 and 1996 NPS grant reporting conditions.
Although Region 8 NPS program staff attempted to withhold these funds, the Assistant Regional
Administrator for Ecosystems Protection and Remediation instructed his staff to release funds to the
State. In addition, Region 8 senior management planned to release 1997 performance partnership
grant (PPG) NPS funds, even though Wyoming had not submitted its 1997 staffing and support
workplan due in January 1997 as agreed in its 1997 state/EPA agreement, which was the basis for its
1997 PPG. Colorado and Utah had generally complied with all grant conditions.



Region 8 Needed to Withhold Funding Until Wyoming Complied with NPS Reporting Requirements

Region 8 senior management did not support Region 8 NPS program staff’s attempt to withhold
Wyoming’s NPS grant funds. Section 319 (h) (11) and NPS grant conditions required states to submit
annual progress reports. States’ annual reports should describe progress in meeting NPS milestones
and quantify improvements to water quality. Wyoming did not submit its fiscal 1995 or 1996 annual
reports until March 1997, and the reports did not adequately describe the State’s NPS program
accomplishments. According to Region 8 NPS program guidance, the annual reports provide an
opportunity for the states to describe NPS program progress and provide the critical information the
Region needs to determine if states have made satisfactory progress as required under section 319
(h) (8). Although Wyoming finally provided its 1995 and 1996 annual reports, the reports did not
comply with NPS annual progress reporting guidance.

Region 8 did not withhold Wyoming’s remaining 1995 and 1996 grant funds to enforce 1995 and 1996
reporting requirements, and withholding 1997 funds did not provide any incentive for Wyoming to
comply. Region 8 advised all states in November 1996 to provide any delinquent annual reports
before it would release 1997 NPS funds. The Region 8 Wyoming project officer attempted to withhold
all of Wyoming’s NPS payments under its 1995, 1996, and 1997 grants until Wyoming submitted
acceptable reports. However, Region 8 senior managers allowed Wyoming to continue receiving
funds from its 1995 and 1996 grants and only withheld Wyoming’s 1997 grant funds. Withholding
1997 funds had no impact on Wyoming’s ability to operate in 1997 since Wyoming continued to have
funds available under its 1995 and 1996 grants. As a result, Wyoming had no additional incentive to
comply with the reporting requirements. The Assistant Regional Administrator for Ecosystems
Protection and Remediation stated that he directed his staff to release Wyoming’s 1995 and 1996
funds because he estimated that withholding funds would adversely impact Wyoming’s ability to
continue NPS-related projects as well as other water quality projects (e.g., establishing total
maximum daily loads).

Although Wyoming eventually provided the annual reports, they were not well organized and did not
provide an adequate summary of Wyoming’s NPS program. For example, Region 8's guidance on the
content of annual NPS progress reports required states to describe the progress on reductions in
NPS loadings and improvements in water quality and stream conditions. Wyoming’s annual reports
described staff activities, but did not describe project accomplishments. Because Region 8 was
unwilling to withhold funds, Wyoming had no incentive to comply with the NPS requirements.

Region 8 Should Enforce NPS Program Commitments in Wyoming’s State/EPA Agreement

Region 8 also intended to provide Wyoming its 1997 NPS funds, even though Wyoming had not
submitted its staffing and support workplan, due in January 1997, as agreed in its 1997 state/EPA
agreement. Wyoming initially refused to submit its 1997 NPS staffing and support workplan because
it believed this workplan duplicated information in its state/EPA agreement. However, the information
in the state/EPA agreement was inadequate and Wyoming needed to provide firm commitments and
sufficient detail for Region 8 to hold the State accountable. We agree that the State should not be
required to prepare duplicative workplans. However, the document that a state provides for its
workplan needs to provide sufficient information about the state’s planned goals and activities. The
information Wyoming submitted in July 1997 was inadequate and did not provide sufficient detail to
hold the State accountable. Region 8 program staff requested a detailed staffing and support
workplan from Wyoming because of Wyoming’s past poor performance and Wyoming’s intention to
disinvest in the NPS program. According to EPA national PPG guidance, states were to use their
categorical workplans as program commitments under a PPG. Further, these program commitments
were to provide appropriate state accountability for the program and be quantifiable, measurable, and
verifiable. Wyoming’s commitments did not meet these criteria.



Region 8 NPS program staff issued guidance that described the requirements of the NPS staffing and
support workplan. The guidance listed specific elements that should be included in the workplan but
allowed pertinent information in state/EPA agreements to be used to supplement the staffing and
support workplan. The guidance stated that the term "on-going" was generally not an acceptable
milestone, and it required a description of staff positions and budget. The information in the staffing
and support workplan was needed to help the Region evaluate whether a state was demonstrating
satisfactory progress and ensure that staffing and support funds were used to strengthen and expand
the state’s NPS program.

Wyoming staff stated that they believed a separate NPS workplan was unnecessary and that the
information included in their state/EPA agreement was sufficient. However, Region 8 NPS program
staff noted that the level of detail in the state/EPA agreement did not sufficiently describe how
Wyoming would use its staffing and support funds. As a result, Region 8 staff asked Wyoming to
submit a staffing and support workplan similar to what Wyoming had provided in prior years. They
noted that this information was particularly important since Wyoming planned to disinvest in the NPS
program. The Region did not have adequate performance measures to hold the State accountable.

Region 8 NPS program staff informed Wyoming that they would not release funds until the Region
received an acceptable workplan. In its 1997 state/EPA agreement, Wyoming agreed to "[s]ubmit
workplans for the FY-97 funds, including staffing and support, to EPA. . . " by January 1997. The
agreement also noted that Wyoming budgeted $5,400 of section 319 funds to develop the workplan.
In July 1997, Wyoming provided a revised organizational chart and summary of NPS staff time
allocations in lieu of a staffing and support workplan per a verbal agreement with Region 8 managers.
During Wyoming’s mid-year evaluation, Region 8 managers and Wyoming had agreed that this
information would be sufficient to meet the needs of a staffing and support workplan even though
Region 8's NPS program staff stated that this information would not be sufficient to hold the State
accountable.

The information contained in Wyoming’s state/EPA agreement, revised organizational chart, and
summary of NPS staff time allocations did not adequately describe how Wyoming would use staffing
and support funds to accomplish program goals. It identified many milestones as "ongoing," did not
provide staff position descriptions or identify which staff would be responsible for which activities, and
did not provide sufficient information about monitoring and assessment activities. A Region 8
manager stated that the Region could still require Wyoming to provide additional information related
to monitoring and assessment work because Wyoming committed to do so in its state/EPA
agreement. Wyoming needed to provide a staffing and support workplan as it agreed in its state/EPA
agreement or supplement its state/EPA agreement with appropriate activities and performance
measures.



REGION 8 NEEDED TO ISSUE ADDITIONAL GUIDANCE TO BETTER DEFINE PROGRAM
TERMS

State representatives interpreted program terms and implemented important program practices
inconsistently because key program terms were undefined. States needed additional guidance to
consistently and effectively implement the NPS program. In response to states’ concerns and
questions, Region 8 developed eight policy papers between 1994 and 1996 that established NPS
program guidelines. Region 8 finalized six of the eight policy papers. The policy papers defined
acceptable practices as well as eligible costs. However, the Region did not finalize its policy on
administrative costs and did not define what qualified as a demonstration project.

EPA changed its policy in 1997 and prohibited regions from issuing supplemental guidance. EPA’s
1994 NPS program guidance stated that regions may provide supplemental regional guidance to
advise states on regional priorities and procedures. However, EPA’s 1997 national guidance stated
that to provide a nationally consistent approach, regions would no longer be allowed to issue
supplemental guidance without headquarters concurrence. As a result, the Region discontinued
issuing policy papers.



Administrative Costs Were Not Defined

Without a definition of administrative costs, states defined administrative costs differently and could
not ensure they complied with congressional limits. Neither the law, EPA, nor the Region adequately
defined administrative costs. Congress limited the amount states could spend on administrative costs
to ten percent and excluded some costs from the limitation. Although eligible for NPS reimbursement,
the law excluded enforcement and regulatory activities, education, training, technical assistance,
demonstration projects, and technology transfer programs from the ten percent administrative cost
limit. However, Congress did not define what should be included in the administrative cost limitation.
Region 8 representatives explained that Congress did not want excessive administrative costs and
intended the majority of funds to be spent on NPS projects.

Without specific guidance, each of the states had interpreted administrative costs differently.
Wyoming took a very conservative approach and closely scrutinized all administrative type
expenditures. Colorado and Utah were less concerned about tracking administrative costs because
they believed most of their costs fell within congressional exclusions. Because of the states’ different
interpretations, the Region could not determine whether states’ administrative costs exceeded
Congress’ ten percent limitation or not.

Demonstration Project Was Defined Differently

States’ interpretation of what qualified as a demonstration project differed because the Region had
not defined demonstration project. For example, the Region needed to define whether or not a
watershed qualified as a demonstration project. If an entire watershed could be properly defined as a
demonstration project, then states should be permitted to address all NPS pollution problems within
that watershed. In addition, if a watershed qualified as a demonstration project, states theoretically
should be permitted to fund similar best management practices in the same geographical area; i.e.,
within the same watershed. If a watershed could not qualify as a demonstration project, similar
practices should not be funded in the same watershed. A demonstration project is intended to show
the effectiveness of a particular NPS pollution control practice.

EPA encouraged states to assess NPS pollution by watershed, but warned that watershed projects
should be small enough to address all or most sources of pollution within the watershed. While EPA
recognized the need to demonstrate the effectiveness of the same best management practice in
different geographic areas, it did not determine whether the same practice in the same geographic
area qualified for NPS funding.

Utah defined a watershed as a demonstration project while Colorado and Wyoming did not. Utah’s
watershed demonstration project included many individual landowner projects within that watershed.
Some of these individual projects implemented the same practice in the same geographic area. For
example, Utah funded several projects in close proximity to each other to keep animal waste out of
streams. Although these projects improved water quality, funding more than one was unnecessary to
demonstrate that a particular practice worked in that watershed. Utah representatives explained that
funding many similar individual landowner projects in the same watershed was necessary to
demonstrate water quality improvements on a watershed basis. Although Utah had a rationale for
defining a demonstration project as an entire watershed area, EPA needs to define its approach and
determine the appropriate definition for a demonstration project. Definition of this term can have a
significant impact on a state’s program implementation. In Colorado and Wyoming, a demonstration
project primarily consisted of a single landowner implementing a particular best management
practice.



CONCLUSION

Region 8 should not significantly reduce its oversight until states comply with all NPS program
requirements. Region 8 had not required updated management plans and had not enforced program
requirements. Without up-to-date management plans neither states nor the Region could ensure the
highest priority NPS problems were addressed. Although Region 8 program staff had attempted to
enforce program requirements, Region 8 senior management had not supported staff decisions. By
continuing to fund Wyoming despite its poor performance and noncompliance with program
requirements, Region 8 sent a message to other states that continued NPS funding was not
dependent upon effective NPS program management. The Region needed to define other key
program practices and terms for states to consistently and effectively implement NPS programs. Also,
the Region should continue to issue guidance, in coordination with EPA’s Office of Water, to help
define important program terms. Region 8 should discuss nationally significant terms such as
administrative costs and demonstration projects with EPA’s Office of Water.



RECOMMENDATIONS

We recommend that the Regional Administrator:

1. Establish milestone dates for each state to complete updated NPS management plans and, if
necessary, withhold funds from states that do not meet agreed upon dates.

2. Require Wyoming to develop a management plan that identifies priorities.

3. Withhold grant funding for Wyoming or any state that does not meet programmatic requirements.

4. Require that Wyoming add either a 1997 staffing and support workplan or additional performance
measures in its state/EPA agreement that Wyoming can realistically accomplish during the year.

5. In coordination with the Office of Water, finalize the Region 8 policy paper on administrative costs.
Advise Office of Water of the potential for misunderstanding in other states and ask the Office of
Water staff to consider issuing a national policy paper.

6. Develop a policy paper defining a demonstration project and submit for headquarters approval.



AUDITEE COMMENTS AND OIG EVALUATION

Region 8 agreed with the findings and concurred with the recommendations. The Region provided
comments to clarify portions of the report and we have incorporated those comments and modified
the report as appropriate.

Wyoming and Utah also provided comments to clarify portions of the report. We have incorporated
those comments and modified the report as appropriate. Colorado’s response noted that the report
did not have any recommendations directly related to it and therefore did not provide any detailed
comments.

In its response to the draft report, the Region stated that Wyoming’s 1997 state/EPA agreement had
milestone dates for NPS program activities that were time critical and work items that were listed as
"ongoing" or "as needed" generally could be quantified in program reports and verified by examining
program records and interviewing appropriate staff.

We believe that work items listed as "ongoing" or "as needed" are not sufficient milestones to hold the
state accountable. Region 8’s own guidance states these are not acceptable milestones and program
commitments must be measurable. In addition, waiting until a state quantifies these work items in its
program reports at the end of the year is not an effective method to hold a state accountable. The
Region must monitor performance during the year and take action as appropriate.

In its response, the Region also stated that it would be much more effective for Wyoming to have a
single document for its record of commitments. We agree and strongly suggest that the Region avoid
duplication of any paperwork. However, the single document used for commitments must include
goals and activities that are quantifiable, measurable, and verifiable. Wyoming had not provided
sufficient information for Region 8 to hold Wyoming accountable in its 1997 state/EPA agreement.
Although Region 8 program staff provided specific guidance on the information they needed to
adequately monitor the State’s progress, Wyoming did not provide the requested information.

Wyoming and Utah disagreed with the recommendations that suggested the Region withhold funds.
Wyoming stated that withholding funds without regards to the substance and significance of the
deficiency was not a solution. Utah stated that it would not be a good idea to withhold funds if the
State missed a deadline because it would negatively affect the partnership relationship. We agree
with the states and recommend that the Region withhold funds only if other alternatives to obtain
compliance and adequate performance have not succeeded. We agree that the Region and the
states need to work as partners in accomplishing program goals. However, EPA should not reward
states that are not adequately performing and not accomplishing program goals.

In its response, Wyoming stated that incompatibilities between the State’s computer system and
EPA’s Grants Reporting and Tracking System used for NPS reporting affected the State’s efficiency
in reporting. Wyoming believed it could better meet reporting requirements if Region 8 agreed to
accept all reporting requirements through the Grants Reporting and Tracking System. We agree that
EPA should streamline reporting requirements where possible especially if this can be done through
the existing Grants Reporting and Tracking System. However, Wyoming must provide timely reports
that include the information necessary to assess program accomplishments either in written or
electronic form.




                                                 CHAPTER 3


       STATE NONPOINT SOURCE PROGRAM MANAGEMENT WAS MIXED




States’ NPS program management and resource commitment varied significantly. The state projects we reviewed were
generally in accordance with overall NPS program objectives, and project reports we reviewed indicated projects had
accomplished their specific project objectives. However, the three states did not commit sufficient state resources to fully
implement their programs without continued federal funding. EPA’s practice of allowing states to carry forward NPS funds
from prior years’ grants discouraged states from developing their own capacity and identifying other sources of funding to
sustain their NPS programs. In addition, Wyoming’s program suffered from its differences with Region 8 over oversight
and reporting requirements. Utah’s NPS program could suffer in future years if its priorities shift and Utah does not
reallocate its resources based on those priorities. Wyoming and Utah did not include adequate representation for all
interested groups on their NPS task forces. Without continued federal funding the three states could not continue to
implement their NPS programs and ensure EPA and Congress that their programs addressed the most significant state
NPS pollution problems.

EPA’s guidance consistently emphasized strong state program management. Strong state management of NPS programs
required sufficient staff and effective coordination among all interested parties to address NPS pollution. One of EPA’s
priorities in awarding NPS staffing and support funds was to build long-term state and local capacity to implement state
NPS programs, regardless of the availability of federal funding. EPA emphasized the importance of having NPS staff
available for NPS monitoring, planning, technical assistance, and information and education. The nine key elements in
EPA’s 1997 guidance included efficiently and effectively managing and implementing an NPS program and establishing
strong working partnerships with local, state, and federal agencies, and private sector groups.




STATES NEED TO PROVIDE STRONGER RESOURCE COMMITMENT

Each of the three states relied primarily on EPA funding to manage their NPS programs. While Colorado and Utah
invested some state funds, Wyoming did not invest any state funds to help manage its NPS program. All three states
recognized they lacked state resources to fully implement the NPS program and kept varying reserves of EPA staffing and
support grant funds in case EPA reduced or limited NPS funding. Using EPA funding and their own state appropriations,
Colorado and Utah had sufficient staff to manage their NPS programs. However, Wyoming did not have sufficient staff to
effectively manage its NPS program. Without sufficient staff, Wyoming could not provide timely and appropriate annual
progress and financial reports. In addition, none of the states were building the long-term state capacity necessary to
effectively implement their NPS programs without continued EPA assistance.

None of the three states contributed sufficient resources to the NPS program to ensure that they could maintain an NPS
program without federal funds. For example, all three states carried forward funds from the prior years’ grants to have
funding available in the event that EPA discontinued NPS funding. These reserves provided the states with some funds to
complete projects already started in case EPA funding stopped. Although EPA approved of states accumulating these
funds, this policy discouraged states from developing their own capacity to sustain NPS programs without federal funding.
By contributing their own state appropriations, Colorado and Utah had a better foundation for developing long-term
capacity to manage their NPS programs than Wyoming. However, all three states needed to further develop their
capability to implement their programs without federal funds.

Wyoming had not devoted sufficient staff to effectively manage its NPS program. Each of the three states received
$375,000 in their fiscal 1995 NPS staffing and support grants. Colorado and Utah each used their entire $375,000 plus
their own state appropriations to support four and eight full-time staff, respectively. Wyoming used about $250,000 of the
staffing and support funds and had only one full-time NPS staff person. As a result, Wyoming was unable to meet NPS
program requirements. For example, Wyoming’s annual reports were late and not well organized and its financial status
reports were inaccurate and difficult to read.

According to the Wyoming environmental department director, Wyoming’s legislature had not approved any additional
staff for the NPS program. However, the director stated that he had the authority to allocate staff within his department as
necessary. The director had not determined that the NPS program was a high enough priority to provide additional NPS
staff. In February 1996, Region 8 sent Wyoming a letter stating that it believed Wyoming was disinvesting in NPS program
management. Region 8 cited Wyoming’s loss of staff and unwillingness to devote staff time for staffing and support
workplan commitments as evidence of Wyoming’s lack of program commitment. The Region’s letter further stated that
Wyoming’s senior management needed to address these concerns in order for Wyoming to move toward an effective
partnership with EPA.

Unless it invests some state funds, Wyoming will be unable to build the long-term capacity needed to effectively manage
its NPS program. Rather than using state appropriations, Wyoming used excess matching funds contributed by
landowners for specific NPS projects to meet its state staffing and support matching fund requirement. Although the
Region approved Wyoming’s approach, this funding method had a detrimental effect on Wyoming’s NPS program. In its
1995 and 1996 workplans for staffing and support funds, Wyoming stated that staff layoffs would occur without federal
funding for the NPS program. Wyoming’s staffing and support workplans added that the source of matching funds for the
NPS staff was solely from excess matching funds on individual NPS projects and that the excess matching funds would
only last for 2 more years. Wyoming staff stated that one of the benefits of including the NPS staffing and support funds in
the State’s 1997 PPG was that they could then easily meet their matching fund requirement for the PPG grant and not
have to provide any NPS-specific matching funds. In other words, Wyoming could appropriately use excess non-federal
funds from other programs as matching funds for the NPS program. Wyoming could continue meeting its match
requirement without investing any state funds to build capacity in its NPS program.

A full-time NPS information and education coordinator would improve Wyoming’s NPS program. Colorado and Utah had
full-time coordinators, while Wyoming did not. Because the NPS program was primarily voluntary and non-regulatory,
states needed to develop a strong information and education component as part of a balanced state NPS program. A
coordinator could be beneficial to getting quality project proposals submitted, disseminating information on successful
projects, and educating the public on the NPS program. In Wyoming, where local and private organizations negatively
viewed state and federal government, a coordinator could be critical to a successful NPS program. Wyoming’s
environmental department director agreed that an information and education coordinator was needed.

In its response to our draft report, Wyoming stated that it had hired two additional staff and planned to hire a third staff
person in the future. Of the two staff already hired, 6/10ths of a full-time equivalent was dedicated solely to NPS.
Wyoming planned for the third staff position to be dedicated solely to NPS technical assistance, education, and liaison
activities. Wyoming also was contracting for expertise to develop the detailed components of its information and education
strategy.




WYOMING AND REGION 8'S RELATIONSHIP ADVERSELYIMPACTED WYOMING’S NPS PROGRAM

The working relationship between Wyoming and Region 8 was adversarial due to differing perceptions of oversight and
reporting requirements. Wyoming perceived the Region as trying to micro-manage the State’s NPS program. In contrast,
regional staff stated that Wyoming was not adequately managing its NPS program and not complying with all reporting
requirements. Wyoming staff believed that temporary assignment of an EPA employee to the State would help build and
maintain an improved relationship with the Region.

Wyoming representatives believed that the Region 8 NPS program staff micro-managed the State’s NPS program, but
Region 8 staff stated that Wyoming’s products were not always complete. According to Wyoming staff, Region 8 staff
comments on project proposals and proposed best management practices were often late and usually after all other
comments had been reviewed and incorporated. In addition, regional comments were often editorial preferences and
contained no real value, according to Wyoming staff. In contrast, regional program staff stated that proposal reviews were
resource-intensive because Wyoming did not always include the required elements in its proposals. The Wyoming water
program administrator stated that Wyoming would prefer that EPA be less involved in project proposals. During
Wyoming’s mid-year evaluation in July 1997, he asked that the Region only approve or deny project proposals and
provide no comments.

Wyoming and Region 8 had different perceptions of adequate reporting. Wyoming staff stated that they complied with the
mandated requirements, but they were not required to nor would they fulfill what they perceived as additional Regional
requirements. Regional staff stated that they did not require Wyoming to report any more information than the other states
in Region 8 or more than what was included in each state’s grant conditions. For example, the Region required states to
report specific project accomplishments. Region 8 clearly communicated the importance of reporting project
accomplishments including how an individual project reduced NPS pollution. Wyoming believed reporting on staff
activities met the Region’s requirement and was not responsive to requests for project accomplishments.

Wyoming stated that Region 8 should reduce its oversight. Wyoming also requested in its 1998 state/EPA agreement that
an EPA employee be temporarily assigned to the State. Wyoming stated that an EPA staff person working directly with
the State on NPS issues would help both agencies better understand each other’s issues, concerns, and problems.




UTAH’S NPS MANAGEMENT STRUCTURE SHOULD CORRELATE TO NPS PRIORITIES

Utah staff agreed that they should continuously examine their NPS management structure and shift resources as priorities
change. Utah’s management structure differed significantly from Colorado’s and Wyoming’s. Colorado and Wyoming
managed their NPS program through their environmental departments. Utah’s environmental department contracted with
Utah’s agriculture department to manage about 70 percent of Utah’s NPS projects. However, if Utah’s priorities shifted
and it reduced the number of agricultural projects, Utah would need to reallocate staff between its environmental and
agriculture departments.
Utah allocated its staff between its environmental and agriculture departments to provide better working relationships with
landowners. Utah’s NPS staffing and support funds combined with state appropriated funds supported four staff positions
in the environmental department and four staff positions in the agriculture departments. Agriculture contracted with the
Utah Association of Conservation Districts to manage individual landowner projects and track project matching funds. This
approach provided an effective mechanism that gained the trust and cooperation of landowners because they were more
accustomed to working with agriculture and the conservation association. According to a conservation association
representative, landowners were more willing to work with agriculture and the conservation association because of
landowners’ negative perception of the environmental department as a regulatory agency.

As Utah prepares its new management plan, Utah’s staff agreed that they should reexamine their management structure
and reallocate staff as necessary to correspond with priorities. For example, if other sources of NPS pollution become a
higher priority than agriculture, Utah should increase its environmental department NPS staff and reduce its agriculture
NPS staff. Similarly, if agricultural projects become an even higher priority, Utah should decrease its environmental
department NPS staff and increase agriculture NPS staff. Utah stated that in the past it had done reviews of its
management structure as part of preparing its annual workplans and defining the roles between its environmental and
agriculture departments. Utah staff said they would do a similar review when they revised their management plan in 1998.




STATES VARIED NPS TASK FORCE COMPOSITION

Wyoming and Utah staff had to seek alternatives outside their NPS task forces to involve all interested parties in their
NPS programs. Unlike Colorado, Wyoming’s and Utah’s NPS task force did not include representation from all parties
interested in NPS pollution control. Wyoming’s task force excluded local, state, and federal government membership, and
Utah’s task force excluded representatives from private industry. Because Colorado’s task force included representation
from all groups, Colorado could more easily ensure that it considered everyone’s views.




EPA and Region 8 guidance encourages states to involve all parties in managing states’ NPS programs. Section 319 (b)
(3) encourages states to involve local, public, and private agencies or organizations in the development and
implementation of their management program. EPA’s 1997 guidance encourages strong working partnerships and
collaboration with appropriate state, interstate, tribal, regional, and local entities including conservation districts, private
sector groups, citizens groups, and federal agencies.

In its response to the draft report, Wyoming stated that it did have a mechanism to involve government agencies in its
NPS program. Wyoming added that the Region 8 Administrator had praised its task force. Wyoming stated that the federal
and state agencies received copies of all proposals with a request for input prior to task force ranking and invited the
agencies to attend task force meetings. We have pointed out that Wyoming excludes federal and local government
agencies, not so much as a criticism, but as an example of where a state had to take additional steps to ensure that all
interested agencies and groups are involved in the state’s NPS program. Wyoming should continue to use mechanisms to
involve interested parties in NPS activities because its task force does not have direct representation from all groups.

Utah stated in its response to the draft report that it would assess its task force role, function, and structure. Utah staff
stated that they were considering including private interests from agricultural commodity groups and extending invitations
to other groups such as the environmental communities. Utah stated that its watershed approach framework promoted
locally led conservation and community based environmental leadership. Utah planned to use its framework as the basis
for including all interested parties in addressing Utah’s NPS pollution.

We did not evaluate these additional measures Wyoming and Utah took to involve interested parties in their NPS
programs. However, we believe that the Region and the states should work together to evaluate whether these additional
measures result in adequate participation.




CONCLUSION

Adequate resources are a critical element to the success of state NPS programs. Colorado and Utah invested some state
funds, while Wyoming did not invest any state resources in managing its NPS program. All three states relied on section
319 funds to manage the NPS program but needed to develop their own state capacity to manage their programs. The
three states established different management structures to implement their NPS programs. Colorado and Utah devoted
four and eight full-time staff, respectively, to their NPS programs, while Wyoming devoted one full-time staff person.
Wyoming did not have sufficient staff and the current staff did not have adequate time to complete program requirements.
The lack of a dedicated information and education coordinator and other full-time NPS staff hindered Wyoming’s ability to
implement an effective NPS program. Wyoming and Region 8 needed to reconcile their differing perceptions of an
appropriate level of oversight and agree on reporting requirements. Wyoming and Region 8 had not established realistic
goals or agreed on an appropriate level of EPA involvement in Wyoming’s NPS program. Colorado, Utah, and Wyoming
composed their task forces differently. Because Wyoming’s and Utah’s task forces did not include full representation of all
interested parties, the Region and the states should work together to determine whether the additional measures
Wyoming and Utah have taken and plan to take result in adequate participation from all interested parties.




RECOMMENDATIONS

We recommend that the Regional Administrator:

1. Provide technical assistance to help states develop a plan that will build states’ capacity to operate an NPS program
without section 319 funding. The plan should include identifying and obtaining other sources of funding, providing
adequate staff support, obtaining senior managers’ commitment and support, and carrying out provisions in states’ NPS
management plans.

2. Determine an appropriate maximum amount of EPA staffing and support grant funds that states may hold in reserve
and monitor the amount of unexpended staffing and support funds held in reserve by each state to avoid excessive
amounts.

3. Urge Wyoming’s environmental department director to provide a full-time information and education coordinator
position for the NPS program. If the State is unwilling to provide a full-time coordinator, assist Wyoming in identifying
critical coordinator functions and encourage the director to provide existing staff adequate time to carry out these duties.

4. Determine if Wyoming’s staffing and support activities adequately support the award of $375,000, and if not, reduce
Wyoming’s staffing and support funds to correlate with planned activities and staff level.

5. Assist Wyoming’s environmental department director in determining what Wyoming can realistically accomplish with the
level of staff in the NPS program. Help identify shortfalls, and determine what level of Region 8 staff involvement is
needed to help Wyoming implement an effective NPS program.

6. Develop a strategy to improve Region 8 and Wyoming NPS staff’s working relationship.

7. Provide technical assistance to help Utah reexamine its management structure and allocation of resources when it
develops its updated management plan.

8. Require Wyoming and Utah to specify how they will include the interests of all parties in addressing NPS pollution when
the states’ update their management plans.




AUDITEE COMMENTS AND OIG EVALUATION

Region 8 agreed with the findings and concurred with the recommendations. The Region provided comments to clarify
portions of the report, and we have incorporated those comments and modified the report as appropriate.

Wyoming and Utah also provided comments to clarify portions of the report. We have incorporated those comments and
modified the report as appropriate. We did not have recommendations directed to Colorado.

Utah did not agree with recommendation number 2 and stated that the State should have the flexibility to manage its
staffing and support reserve without EPA mandating a prescribed amount. Utah noted that some reserve was necessary
because Region 8 did not typically award grants until mid-year. However, we believe that these reserves should not be
excessive and that the Region and states should work together to determine whether states’ reserves are excessive.




                                               CHAPTER 4

          UTAH AND WYOMING NEEDED TO IMPROVE SOME FINANCIAL
                       MANAGEMENT PRACTICES




Utah and Wyoming needed to improve some NPS program financial management practices. We did
not question any costs in our sample of NPS expenditures in Colorado and Wyoming. We identified
$265,182 of ineligible costs in Utah’s NPS project matching fund pools and identified areas needing
improvement in Utah’s and Wyoming’s financial management practices. Utah’s conservation
association inadvertently included agricultural loan lines of credit in its NPS project matching fund
pools. In addition, the association did not have supporting documentation for some costs and
included other ineligible items in its project matching fund pools. Wyoming’s burdensome contract
amendment process resulted in one subgrantee performing work beyond the contract project period.
Utah travel procedures did not require travelers to provide the purpose of their trip on in-state travel
documents. Also, Utah’s NPS project files did not include summary sheets for easy tracking of
expenditures and related matching funds. Utah began reviewing its matching fund pools to remove
ineligible costs and agreed to make necessary procedural changes in its travel procedures and
project file management.

States must comply with NPS grant conditions and general grant regulations at 40 Code of Federal
Regulations (CFR) Parts 31 and 35. EPA guidance states that regions must hold states responsible
for all NPS program expenditures and accomplishments. The state agency receiving the grant is
responsible even if it contracts with other state agencies or individuals to carry out NPS activities.
Section 319 (h) (3) provides that the federal cost share shall not exceed 60 percent of the total costs
and the state’s 40 percent matching fund must come from non-federal sources. In addition, 40 CFR
Part 31.24 requires that states’ matching fund contribution, either cash or in-kind contributions, must
be for allowable costs.



UTAH’S MATCHING FUND POOLS INCLUDED INELIGIBLE COSTS

We questioned $265,182 of ineligible costs included in Utah’s matching fund pools. Utah’s
conservation association included costs that were not eligible for EPA reimbursement in its matching
fund pools. The association staff believed that as long as any expenditure improved water quality it
could be used as part of Utah’s matching fund. By including ineligible costs in its matching fund pools,
Utah may not be able to meet future matching fund requirements. Region 8 needs to ensure that
Utah’s final financial status reports include only eligible and allowable costs for state match. Because
Utah’s NPS grants are not closed, the State has time to ensure all costs used for match are eligible
for NPS program reimbursement. In addition, Utah needs to determine whether it will continue to
require its subgrantees to contribute less than the full matching fund requirement.
We determined ineligible costs in the association’s matching fund pools for two of the four watersheds
the association managed. In one matching fund pool, we questioned $152,798 in lines of credit for
agricultural loans. These lines of credit were not actual expenditures. Therefore, Utah could not use
these funds as matching funds. We also questioned $112,384 in the second watershed’s matching
fund pool because the association could not provide any supporting documentation. We identified, but
did not quantify, other items in the matching fund pools that were not eligible under the 319 NPS
program. For example, EPA and Utah had agreed some expenditures were ineligible for EPA
reimbursement, but the association representatives believed these expenditures were eligible as
matching funds if the expenditures benefited water quality within the watershed. Also, prior to our
audit, the association staff was unaware of regional policy papers that helped define eligible and
ineligible costs. Based on our sample, we believe that the two matching fund pools we sampled as
well as those for watersheds we did not review may contain additional ineligible costs.

Utah may not have to repay the ineligible matching funds we identified because most of the NPS
grants are still open, Utah has matching funds in excess of what was currently required, and Utah has
time to ensure eligible matching funds are sufficient to cover program expenditures. However, several
of these grants will close September 30, 1997. Utah needs to review its matching fund pools, deduct
ineligible matching funds, and determine if it will need to contribute additional matching funds to meet
the matching funds requirement. During the course of our audit, the association staff along with
Utah’s environmental and agricultural staff began to identify and remove all ineligible costs from their
matching fund pools and obtained copies of Region 8 policy papers that defined eligible and ineligible
project costs. Utah staff planned to submit to Region 8 the results of their review by October 31,
1997, for those matching fund pools included in our audit. Utah staff planned to complete their review
of other matching fund pools by December 15, 1997.

Section 319 required grant recipients to contribute 40 percent of NPS program expenditures. Utah
met its 40 percent matching requirement by having landowners contribute 25 percent and other state
and local sources contribute 15 percent. These funds accumulated in the association’s matching fund
pools.

The association’s matching fund pools consisted of costs that other landowners incurred but EPA did
not reimburse. The matching fund pools also included the dollar value of in-kind activities from other
projects within a watershed that related to water quality. These matching funds and in-kind activities
were not actual funds received but rather a running tally of credits to the matching fund pools.

The association may no longer have positive balances in its matching pools once it reviews the pools
and eliminates all ineligible items. Without a balance in the matching fund pools, the association will
not have a funding source for its matching fund contribution and may not be able to provide the
additional matching funds for landowners’ projects. The association staff needs to determine whether
they will be able to continue contributing the additional 15 percent matching fund contribution on
landowner projects or if the association should begin requiring landowners to contribute the full 40
percent of matching funds. Utah is currently reviewing its contribution ratio to determine if landowners
should contribute more than 25 percent. Utah plans to have a decision by October 1, 1997.



WYOMING NEEDED TO STREAMLINE ITS CONTRACT AMENDMENT PROCESS

Wyoming needed to streamline its contract amendment process. Because of its burdensome process,
Wyoming was unable to timely amend one of the three contracts we reviewed. As a result, Wyoming
reimbursed one subgrantee $81,068 for work that was performed beyond the contract’s original
project period.
Wyoming reimbursed one subgrantee for work performed after the contract project period because of
Wyoming’s lengthy contract amendment process. Wyoming staff stated that they had approved the
work and were aware that they needed to amend the contract to extend the project period. In
addition, Wyoming’s project files included documents that showed project officers had requested
amendments to the contract for extending the project period. They explained that the contract
amendment process was very time-consuming and often took as long to complete as an original
contract. One Wyoming NPS program official stated that Wyoming and the subgrantee did not want to
cause a delay in the project just because the paperwork took so long to process. Although Wyoming
staff believed the total amount was less than $81,000, they offered no support for a different amount.
However, they agreed that the process took too long and needed to be streamlined.

Wyoming stated that its contract amendment process was essentially the same as awarding an
original contract because it ensured that: (1) federal and state requirements were met, (2) an
amendment was actually needed, and (3) everyone was aware of financial and legal responsibilities.
We agree that these are important factors and encourage Wyoming to examine ways to streamline its
process. Wyoming staff stated they were examining ways to expedite the process.



UTAH INITIATED ADMINISTRATIVE IMPROVEMENTS

We identified two financial management issues that Utah began to correct during the course of our
audit. Utah had begun making improvements in its travel procedures and project file maintenance.
OMB Circular A-87 states that for costs to be allowable under federal awards, the costs must be
adequately documented and allocable to the federal award. Utah’s procedures did not require staff to
provide the purpose of in-state travel on their travel authorization or reimbursement forms. The
conservation association’s project files did not include summary sheets that tracked project costs and
matching funds. Without documentation of the purpose of in-state travel and summary sheets that
tracked project costs and matching funds, it was difficult to determine the allocability of the costs to
the NPS grants.

Utah did not require travelers to list the purpose of their trip on their travel authorizations or
reimbursement forms. Although the travel cost documentation we reviewed did not include the
purpose of in-state travel, Utah staff were able to provide justification for the trips. Utah staff agreed to
document the justification for future in-state travel and make appropriate procedural changes.

The conservation association did not include project cost summary sheets in its project files. Although
it maintained meticulous records of original invoices, project approval documents, and payment
approval authorizations, the association did not summarize project costs. A summary sheet would
provide an easy reference to determine total project expenditures and document matching funds. The
association staff agreed that better file maintenance would help them keep track of program
expenditures and agreed to begin using summary sheets immediately.



CONCLUSION

We identified $265,182 of ineligible costs included in Utah’s project matching fund pools. Utah may
need to require the landowners to contribute the full 40 percent matching fund requirement if it is
unable to provide eligible funds for match. Because of the length of time required to amend a
contract, Wyoming reimbursed one contractor $81,068 for work performed beyond the project period
stated in the original contract. Utah’s effort to improve file management and in-state travel procedures
will further strengthen Utah’s financial management.



RECOMMENDATIONS

We recommend that the Regional Administrator:

1. Verify that Utah has removed all ineligible costs from its matching fund pools and provide
assistance to conservation association staff in determining eligible costs.

2. Review Region 8 policy papers with the Utah staff to ensure they understand what costs are
eligible.

3. Before making final payment on any Utah NPS grant, verify that all Utah matching funds are
eligible for NPS program participation.

4. Provide technical assistance to Utah’s agriculture and environmental departments and
conservation association in determining whether Utah or the conservation association should
continue to contribute 15 percent of the matching funds requirement on each project or require
subgrantees to contribute the full 40 percent required by the NPS program.

5. Provide technical assistance to Wyoming to streamline its contract amendment process to ensure
project costs are not incurred outside the project period.

6. Verify that Utah has changed its in-state travel procedures to require justification and that the
conservation association has included summary sheets in its project files.



AUDITEE COMMENTS AND OIG EVALUATION

Region 8 agreed with the findings and concurred with the recommendations. The Region provided
comments to clarify portions of the report, and we have incorporated those comments and modified
the report as appropriate.

Wyoming and Utah also provided comments to clarify portions of the report. We have incorporated
those comments and modified the report as appropriate. Colorado’s response noted that the report
did not have any recommendations directly related to it and therefore did not provide any detailed
comments.




                                                      EXHIBIT I
SCOPE AND METHODOLOGY

To determine the sufficiency of Region 8's oversight, we interviewed the NPS program staff, reviewed project files, and
discussed regional oversight with state representatives. We reviewed CWA, section 319 and EPA national guidance to
determine program objectives and EPA’s policy for implementation. We reviewed regional policy papers to determine
whether regional staff provided adequate guidance on regional priorities and state concerns. We reviewed grant
documents, work assignments, and correspondence between project officers and state staff to determine whether
regional project officers sufficiently monitored state activities and discussed issues and concerns with state staff.

To determine whether states ensured projects were in accordance with NPS objectives and consistent with state/EPA
agreements, we reviewed states’ project selection processes, evaluated states’ task force composition, and reviewed
states’ project files. We interviewed state project officers and NPS program managers to obtain information about
establishing priorities and selecting projects. We attended a Colorado NPS task force meeting to observe its proceedings.
We judgmentally selected two projects in Colorado and three each in Utah and Wyoming to determine whether individual
projects accomplished their objectives. We selected these projects because they were completed or substantially
completed and representative of significant state NPS issues. We visited project sites, observed the work performed, and
discussed the projects with the subgrantees. We reviewed project reports and compared them to original project
objectives. In addition, we compared the selected projects in each state to the management plan to determine whether the
projects were part of the state’s priorities.

To determine whether costs claimed were allowable, reasonable, and allocable to the NPS grants, we selected and tested
a sample of costs claimed. We judgmentally selected a sample of costs claimed for the eight projects we reviewed for
objective accomplishments and reviewed the supporting cost documentation. In addition, we judgmentally selected a
sample of state staffing and support costs claimed under the grants to administer the state NPS program. These grants
included Colorado grants C9008634-93 and C9008634-95, Utah grants C9008632-93 and C9008632-95, and Wyoming
grant C9998306-95. We sampled staffing and support costs claimed during the period October 1, 1995, through
September 30, 1996. For the staffing and support costs, we reviewed the source documentation for all sampled
transactions including purchase orders, payment invoices, travel authorizations, travel vouchers, and timesheets.
Because these grants have not been closed, our audit did not represent a final audit of costs claimed.

In addition to the audit of accounting transactions, we selected and tested transactions to determine the states’
compliance with NPS grant terms and conditions and applicable federal statutes and regulations.

>We reviewed the states’ compliance with the financial reporting requirements and interviewed state administrative and
program staff to determine whether they appropriately implemented policies and procedures.




To determine whether state project managers obtained sufficient financial and programmatic information to ensure grant
expenditures were appropriate, we interviewed state NPS program and financial staff, reviewed supporting cost
documentation, and analyzed the states’ subgrantee payment reimbursement process. We reviewed the progress reports
subgrantees submitted to states regarding project progress and interviewed state staff about their project oversight. We
reviewed subgrantees’ processes for preparing and documenting payment requests. In Wyoming and Utah, we
interviewed conservation district staff responsible for managing programs to determine whether they were adequately
accounting for costs and providing sufficient information to state staff.



                    APPENDIX I - IV NOT AVAILABLE IN THIS FORMAT




                                             APPENDIX V

                                         ABBREVIATIONS
CFR Code of Federal Regulations

CWA Clean Water Act

EPA Environmental Protection Agency

GAO General Accounting Office

NPS Nonpoint Source

OIG Office of Inspector General

PPG Performance Partnership Grant




                                            APPENDIX VI

                                          DISTRIBUTION




Office of Inspector General

Inspector General (2410)
Deputy Assistant Inspector General for External Audits (2421)

EPA Headquarters Office

Assistant Administrator for Water (4101)
Assistant Administrator for Administration and Resources Management (3101)
Associate Administrator for Congressional and Legislative Affairs (1301)
Associate Administrator for Communications, Education, and Public Affairs (1701)
Associate Administrator for Regional Operations and State/Local Relations (1501)
Director, Office of Policy and Resource Management (3102)
Director, Grants Administration Division (3903F)
Director, Assessment and Watershed Protection Division (4503F)
Comptroller (2731)
Agency Audit Followup Coordinator (3304)
Agency Audit Followup Official (3101)
Headquarters Library (3304)

EPA Region 8

Assistant Regional Administrator, Office of Pollution Prevention, State and Tribal Assistance
Assistant Regional Administrator, Office of Ecosystems Protection and Remediation
Program Manager, Ecosystems Protection Program
Section Chief, Ecosystems Protection Program
NPS Coordinator
Colorado NPS Project Officer
Wyoming NPS Project Officer
Utah NPS Project Officer
Audit Coordinator
Colorado Department of Public Health and Environment

Executive Director
Controller
Program Administrator, Water Quality Control Division
NPS Coordinator, Water Quality Control Division

Wyoming Department of Environmental Quality

Director
Administrator, Water Quality Division
Program Manager, Water Quality Division
Program Supervisor, Water Quality Division

Utah Department of Environmental Quality

Executive Director
Director, Division of Water Quality
Manager, Water Quality Management Section
Financial Manager, Office of Support Services

Utah Department of Agriculture and Food

Commissioner
Chief, Environmental Quality Section
